                                                                 Issue Date
                                                                          April 30, 2007
                                                                 Audit Report Number
                                                                          2007-CH-1007




TO:         Randolph Wilson, Acting Director of Columbus Multifamily Housing Hub,
              5EHM


FROM:       Heath Wolfe, Regional Inspector General for Audit, 5AGA

SUBJECT: Trumbull Metropolitan Housing Authority, Warren, Ohio, Did Not Ensure Its
          Nonprofit Followed HUD’s Section 8 Housing Requirements

                                   HIGHLIGHTS

 What We Audited and Why

             We audited the Trumbull Metropolitan Housing Authority’s (Authority) activities
             with its related nonprofit organizations. The review of housing authorities’
             development activities is set forth in our fiscal year 2006 annual audit plan. We
             selected the Authority for audit because it was identified as having high-risk
             indicators of nonprofit development activity. Our objective was to determine
             whether the Authority’s nonprofit received Section 8 housing assistance payments
             in accordance with the U.S. Department of Housing and Urban Development’s
             (HUD) requirements.

 What We Found

             The Warren Housing Development Corporation (Corporation), a nonprofit entity
             created by the Authority, received more than $2.2 million in housing assistance
             payments from July 1, 2005, through February 28, 2007, contrary to HUD’s
             requirements. The Corporation was created in May 1977 as a nonprofit
             instrumentality of the Authority. However, the Corporation revised its articles of
             incorporation in June 2005 and was no longer an instrumentality of the Authority.
             According to HUD’s regulations at 24 CFR [Code of Federal Regulation] Part
             880, the project must be owned by a public housing agency (instrumentality)
             throughout the term of the housing assistance payments contract. The Authority
           revised the Corporation’s articles of incorporation on March 13, 2007, to reinstate
           the Corporation as an instrumentality of the Authority.

What We Recommend

           We recommend that the acting director of HUD’s Columbus Office of
           Multifamily Housing require the Authority to implement procedures and controls
           to ensure that it follows HUD’s requirements regarding Section 8 housing
           assistance payments to its instrumentality.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence issued because of the audit.

Auditee’s Response

           We provided our discussion draft audit report to the Authority’s executive
           director, the chairman of its board of commissioners, and HUD’s staff during the
           audit. We held an exit conference with the Authority’s executive director on
           April 20, 2007.

           We asked the Authority’s executive director to provide written comments on our
           discussion draft audit report by April 25, 2007. The Authority’s executive
           director provided written comments, dated April 20, 2007. The Authority agreed
           with our finding and recommendation. The complete text of the written
           comments, along with our evaluation of that response, can be found in appendix B
           of this report except for five pages of documentation that was not necessary for
           understanding the Authority’s comments. A complete copy of the Authority’s
           comments plus the documentation was provided to the acting director of HUD’s
           Columbus Office of Multifamily Housing.




                                            2
                            TABLE OF CONTENTS

Background and Objectives                                                        4

Results of Audit

      Finding: The Authority Lacked Procedures and Controls to Ensure That Its   5
               Corporation Complied with HUD’s Requirements

Scope and Methodology                                                            7

Internal Controls                                                                8

Appendixes
   A. Schedule of Funds to Be Put to Better Use                                  10
   B. Auditee Comments and OIG’s Evaluation                                      11




                                             3
                      BACKGROUND AND OBJECTIVES

The Trumbull Metropolitan Housing Authority (Authority) was established under Section
3735.27 of the Ohio Revised Code. The Authority contracts with the U.S. Department of
Housing and Urban Development (HUD) to provide low- and moderate-income persons with
safe and sanitary housing through rent subsidies. As of March 2007, the Authority had 1,376
public housing units and 916 Section 8 Housing Choice Voucher program units. A five-member
board of commissioners governs the Authority. The Authority’s books and records are located at
4076 Youngstown Road, Southeast, Warren, Ohio.

The Authority created three nonprofits to develop four Section 8 new construction projects. The
nonprofits are Warren Housing Development Corporation (Corporation), HUB-NIL Housing
Development Corporation, and Ridge Housing Development Corporation. The four projects
were financed through the receipt of 1977 Section 11(b) tax-exempt bonds and 1977 and 1978
revenue notes. The Authority was approved as a public housing agency and was eligible to carry
out the four Section 8 projects. The three nonprofits were the financing agencies and
instrumentalities of the Authority. None of the projects is HUD insured, but all are HUD
subsidized.

In accordance with its agency plan, a public housing agency may form and operate wholly
owned or controlled subsidiaries or other affiliates. Such wholly owned or controlled
subsidiaries or other affiliates may be directed, managed, or controlled by the same persons who
constitute the board of directors or similar governing body of the public housing agency or who
serve as employees or staff of the public housing agency but remain subject to other provisions
of laws and conflict-of-interest requirements. Further, a public housing agency, in accordance
with its agency plan, may enter into joint ventures, partnerships, or other business arrangements
with or contract with any person, organization, entity, or governmental unit with respect to the
administration of the programs of the public housing agency such as developing housing or
providing supportive/social services subject to either Title I of the United States Housing Act of
1937, as amended, or state law.

We selected the Authority for audit because it was identified as having high-risk indicators of
nonprofit development activity. Our objective was to determine whether the Authority’s
nonprofit Corporation received Section 8 housing assistance payments in accordance with
HUD’s requirements.




                                                4
                                RESULTS OF AUDIT

Finding: The Authority Lacked Procedures and Controls to Ensure That
          Its Nonprofit Complied with HUD’s Requirements
The Corporation, a nonprofit entity created by the Authority, received housing assistance
payments from July 1, 2005, through February 28, 2007, contrary to HUD’s requirements. The
Corporation was created in May 1977 as a nonprofit instrumentality of the Authority to act as the
financing agency for the development of a Section 8 project. The Authority’s 1977 housing
assistance payments contract with HUD requires the project to be owned by a public housing
agency (instrumentality) throughout the 30-year term of the housing assistance payments
contract. However, the Corporation revised its articles of incorporation in June 2005 and was no
longer an instrumentality of the Authority. The Authority and the Corporation’s trustees were
unaware of HUD’s requirements that the Corporation remain a public housing agency to receive
housing assistance payments. As a result, the Corporation received more than $2.2 million in
improper housing assistance payments.


 The Authority Violated Its
 Contract with HUD


              The Corporation received more than $2.2 million in housing assistance payments
              from July 1, 2005, through February 28, 2007, contrary to HUD’s requirements.
              In December 2005, HUD provided final approval for a merger of two of the
              Authority’s housing development corporations into the Warren Housing
              Development Corporation. As a result of the merger, the Corporation became the
              owner of four Section 8 new construction projects and received housing
              assistance payments.

              On May 18, 2005, the Corporation’s trustees approved a revision to its articles of
              incorporation to remove the Corporation as an instrumentality of the Authority.
              The Ohio secretary of state’s office recorded the revision on June 2, 2005. This
              revision was made without HUD’s knowledge and contrary to 24 CFR [Code of
              Federal Regulations] 880.102. Section 880.102 requires the projects to be owned
              by a public housing agency throughout the term of the housing assistance
              payments contracts. According to HUD regulations at 24 CFR [Code of Federal
              Regulations] Part 880, a public housing agency is defined as any state, county,
              municipality, or other governmental entity or public body or agency or
              instrumentality thereof, which is authorized to engage in or assist in the
              development or operation of low-income housing projects. Since the Corporation
              is no longer a public housing agency, the Authority violated its agreements with
              HUD. As a result, the Corporation was no longer eligible to receive Section 8
              housing assistance payments from HUD.




                                                5
The Authority Lacked
Procedures and Controls over
Its Nonprofits

           The Authority and the Corporation’s trustees were not aware of HUD’s
           requirement that the Corporation remain a public housing agency to receive
           Section 8 housing assistance payments. Once we identified that the Corporation
           was improperly receiving housing assistance payments, the Authority’s executive
           director and the Corporation’s trustees agreed to revise the Corporation’s articles
           of incorporation to reinstate the Corporation as an instrumentality of the
           Authority. The Authority revised the Corporation’s articles of incorporation on
           March 13, 2007, to reinstate the Corporation as an instrumentality of the
           Authority. The revision effectively makes the Corporation a public housing
           agency as stated in HUD’s requirements. If the Authority implements procedures
           and controls to ensure compliance with its contracts with HUD, we estimate that
           nearly $1.4 million in future housing assistance payments will be used correctly.
           The estimate is based upon the $1,367,630 in annual Section 8 housing assistance
           payments received by the Corporation for the four projects.

Recommendation

           We recommend that the acting director of HUD’s Columbus Office of
           Multifamily Housing require the Authority to

           1A.    Implement procedures and controls to ensure that it follows HUD’s
                  requirements regarding Section 8 housing assistance payments to its
                  instrumentalities. The procedures and controls will ensure that $1,367,630
                  in housing assistance payments over the next year will meet HUD’s
                  requirements.




                                            6
                        SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed

   •   Applicable laws, regulations, HUD’s program requirements at 24 CFR [Code of Federal
       Regulations] Parts 811 and 880, HUD notices, HUD’s declaration of trusts, and housing
       assistance payments contracts.

   •   The Authority’s accounting records, annual audited financial statements for the year ending
       June 30, 2005, general ledgers, bank statements and cancelled checks, policies and
       procedures, board meeting minutes and resolutions that covered our audit period of July
       2005 through August 2006, cost allocation plans, annual contributions contract number C-
       5001, and organizational chart.

   •   The Corporation’s accounting records, general ledgers, bank statements, board meeting
       minutes and resolutions from May 1977 through August 2006, articles of incorporation,
       organizational chart, management agent certifications, management agent agreements, and
       merger documentation.

   •   HUD’s files for the Authority.

We also interviewed the Authority’s and the Corporation’s employees and board members and
HUD staff.

We performed our on-site audit work from September through October 2006. The audit covered
the period from July 1, 2005, through August 31, 2006. This period was adjusted as necessary.

We performed our audit in accordance with generally accepted government auditing standards.




                                                7
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting,
   •   Compliance with applicable laws and regulations, and
   •   Safeguarding resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

              We determined the following internal controls were relevant to our audit objective:

                  •   Program operations – Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

                  •   Validity and reliability of data – Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

                  •   Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

                  •   Safeguarding resources – Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

              We assessed all of the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.

 Significant Weakness

              Based on our review, we believe the following item is a significant weakness:


                                                8
•   The Authority lacked procedures and controls to ensure that it followed
    HUD’s requirements regarding Section 8 housing assistance payments to
    its instrumentalities (see finding 1).




                            9
                                  APPENDIXES

Appendix A

     SCHEDULE OF FUNDS TO BE PUT TO BETTER USE

                          Recommendation        Funds to be put
                              number             to better use 1/
                                 1A              $1,367,630
                                Total            $1,367,630

1/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reductions in outlays, deobligation of funds, withdrawal of
     interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     which are specifically identified. In this instance, if the Authority implements our
     recommendation, it will ensure that program funds are spent according to federal
     requirements. Once the Authority successfully improves its controls, this will be a
     recurring benefit. Our estimate reflects only the initial year of this benefit.




                                           10
Appendix B

        AUDITEE COMMENTS AND OIG’s EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                         11
                          OIG Evaluation of Auditee Comment

Comment 1   Since the Authority provided documentation that the Corporation revised its
            articles of incorporation to reestablish itself as an instrumentality of the Authority;
            we removed the applicable recommendation from this audit report.




                                              12
